Audit Report




OIG-11-055
SAFETY AND SOUNDNESS: Failed Bank Review of Ideal Federal
Savings Bank
December 29, 2010




Office of
Inspector General
Department of the Treasury
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                             December 29, 2010


             OIG-11-055

             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                 Susan L. Barron /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of Ideal Federal Savings Bank


             This memorandum presents the results of our review of the failure of Ideal Federal
             Savings Bank (Ideal). Ideal opened on April 4, 1920, and operated from a single
             office in Baltimore, Maryland. Ideal was a mutual, minority owned thrift. The Office
             of Thrift Supervision (OTS) closed Ideal and appointed the Federal Deposit
             Insurance Corporation (FDIC) as receiver on July 9, 2010. As of March 31, 2010,
             the thrift had $6.3 million in total assets. FDIC estimated that the loss to the
             Deposit Insurance Fund is $2.1 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Ideal that was limited to (1) ascertaining the grounds
             identified by OTS for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OTS reports of examination; and
             (3) interviewed OTS examination personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-055
Page 2

Causes of Ideal’s Failure
OTS appointed the FDIC as receiver based on the following grounds: (1) the thrift was
in an unsafe or unsound condition to transact business; (2) the thrift, by resolution of
its board of directors, consented to the appointment; and (3) the thrift was
undercapitalized.

The primary causes of Ideal’s failure were its ineffective board and management
oversight, excessive concentrations in higher-risk nonresidential and land loans, and
insufficient capital relative to the risk level of its loan portfolio. Ideal also had a
concentration of loans held by just a few borrowers. For example, Ideal granted
several loans to one corporation which when aggregated amounted to 61 percent of
total capital, as of December 31, 2008, and 58 percent of the thrift’s total classified
assets, as of February 9, 2009. In 2007, Ideal experienced rapid asset deterioration
resulting in significant increases in its problem assets and loan losses. In turn, these
loan losses, combined with its high operating expenses, significantly diminished
earnings and capital and, ultimately, led to Ideal’s failure.

It should be noted that our review of Ideal revealed certain questionable
transactions. We referred these matters to the Treasury Inspector General’s Office
of Investigations.

Conclusion
Based on our review of the causes of Ideal’s failure and the grounds identified by
OTS for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the thrift’s failure or the supervision exercised by OTS.
Accordingly, we have determined that a more in-depth review of the thrift’s failure
by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of Ideal’s failure summarized in this
memorandum are consistent with the information contained in its reports of
examinations and documents in support of the grounds for receivership. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.
OIG-11-055
Page 3

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or J.
Mathai, Audit Manager, at (202) 927-0356.

Attachments
         OIG-11-055

       Attachment 1
Management Response
                                                   OIG-11-055

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
